         Office of Inspector General




September 29, 2005

AKINYINKA O. AKINYELE
MANAGER, CHICAGO DISTRICT

SUBJECT: Audit Report – City Letter Carrier Operations – Chicago District
         (Report Number DR-AR-05-019)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in the Chicago District (Project Number 05YG007DR002). This is the
third in a series of six reports on city letter carrier operations issued under the Value
Proposition Agreement between the vice president, Delivery and Retail, and the Office
of Inspector General’s (OIG) Delivery and Retail directorate. The overall objective was
to assess the management of city letter carrier operations.

Opportunities exist to improve the management of city letter carrier operations in the
district. Specifically:

   •   Delivery facility supervisors and managers did not adequately match
       workhours with workload when approving Postal Service Forms 3996,
       Carrier - Auxiliary Control. We projected the sample results for a total of
       78,248 unjustified hours over the 5-month period September 1, 2004, through
       January 31, 2005. We informed Great Lakes Area delivery management of our
       unrecoverable costs of $2,020,200 and we will report it as such in the
       Semiannual Report to Congress.

   •   Delivery facility supervisors and managers did not always timely view the
       Delivery Operations Information System Reports to manage daily operations.

   •   Delivery facility supervisors and managers did not effectively use the Managed
       Service Points (MSP) base information to monitor carrier performance.

   •   Delivery facility supervisors and managers did not always properly document
       letter carriers’ unauthorized overtime occurrences and take appropriate
       corrective action.

We recommended the manager, Chicago District, direct delivery facility supervisors and
managers to enforce the policy for carriers to properly complete required forms and
instruct supervisors to only authorize time carriers request. We also recommended the
manager require supervisors and managers to use MSP more effectively, consistently
document unauthorized overtime on required forms, and take appropriate corrective
action.

Management agreed with our findings and recommendations but disagreed with the
unrecoverable costs. Management has initiatives completed and planned addressing
the findings and recommendations in this report. Management’s comments and our
evaluation of these comments are included in this report.

The OIG considers recommendations 1 and 2 significant and requires OIG concurrence
before closure. The OIG considers the support provided by management detailing
corrective actions to be sufficient to close the recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Ellis A. Burgoyne
    Michael S. Furey
    JoAnn Feindt
    Steven R. Phelps
City Letter Carrier Operations –                                         DR-AR-05-019
 Chicago District


                                   TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objectives, Scope, and Methodology                                           4
     Prior Audit Coverage                                                         5

 Part II

 Audit Results                                                                    7

      Workhours Not Adequately Matched To Workload                                7
         Unjustified Time                                                         8
         PS Form 3996, Carrier – Auxiliary Control                                9
      Recommendations                                                             9
      Management’s Comments                                                       9
      Evaluation of Management’s Comments                                        10

      Supervisors Did Not Always Timely View DOIS Reports                        11
      Recommendations                                                            12
      Management’s Comments                                                      12
      Evaluation of Management’s Comments                                        12

      Managed Service Points Base Information                                    13
      Recommendations                                                            14
      Management’s Comments                                                      14
      Evaluation of Management’s Comments                                        14

      Unauthorized Time                                                          15
      Recommendation                                                             16
      Management’s Comments                                                      16
      Evaluation of Management’s Comments                                        16

 Appendix A. Summary of 120 “3996 Audits”                                        17

 Appendix B. Projection of “3996 Audit” Results Over Five-Month Period           21

 Appendix C. Technical Documentation                                             22
City Letter Carrier Operations –                      DR-AR-05-019
 Chicago District


 Appendix D. OIG Calculation of Unrecoverable Costs           23

 Appendix E. Management’s Comments                            24
City Letter Carrier Operations –                                                                          DR-AR-05-019
 Chicago District


                                        EXECUTIVE SUMMARY
    Introduction                     This report presents the results of our self-initiated audit of
                                     city letter carrier operations in the Chicago District. The
                                     overall objective was to assess the management of city
                                     letter carrier operations.

    Results in Brief                 Opportunities exist to improve the management of city letter
                                     carrier operations in the Chicago District. Specifically:

                                         •    Delivery facility supervisors and managers did not
                                              effectively match workhours with workload. This
                                              occurred primarily because carriers did not always
                                              submit a Postal Service (PS) Form 3996, Carrier –
                                              Auxiliary Control, to document their requests for
                                              additional time. As a result, we projected the
                                              six delivery facilities had 22,356 unjustified hours that
                                              were not supported by volume or workload from
                                              September 1, 2004, through January 31, 2005. We
                                              projected the sample results to all 21 similarly sized
                                              delivery facilities in the district for a total of
                                              78,248 unjustified hours. Per discussions with
                                              headquarters and Great Lakes Area management,
                                              we informed the Chicago District that 50 percent1 of
                                              the total variance in the Web Enabled Enterprise
                                              Information System or $2,020,2002 will be used as
                                              the unrecoverable costs.

                                         •    Supervisors and managers did not always view
                                              Delivery Operations Information System (DOIS)
                                              Reports such as the Workload Status, Route/Carrier
                                              Daily Performance, and Managed Service Points
                                              (MSP) Overview Reports timely to effectively manage
                                              daily operations.

                                         •    Supervisors and managers did not consistently use
                                              the MSP base information to monitor carrier
                                              performance effectively. Supervisors were not using
                                              PS Form 3999, Inspection of Letter Carrier Route, or
                                              another current form to update the route pivot plan.
                                              Additionally, supervisors did not always retrieve the

1
 Postal Service officials thought a reduction of 50 percent of the variance was a reasonable target.
2
 Fifty percent of the total variance for September 1, 2004, through January 31, 2005, for the 21 facilities with
30-55 routes.




                                                            i
City Letter Carrier Operations –                                                              DR-AR-05-019
 Chicago District


                                          MSP Overview Report3 daily to review, annotate and
                                          document any noncompliance indicators.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take corrective action to assist in managing overtime
                                          issues. Supervisors said documenting unauthorized
                                          overtime was a lower priority.

    Summary of                     We recommended the manager, Chicago District, direct
    Recommendations                delivery facility supervisors and managers to enforce the
                                   policy for carriers to submit a PS Form 3996 when workload
                                   or volume indicates the carrier will need additional time for
                                   the route and require them to properly document the
                                   reasons for the requests. The manager should also instruct
                                   the supervisors to only authorize time that carriers request
                                   on the form. In addition, the manager should direct
                                   supervisors and managers to use DOIS Reports to manage
                                   daily delivery and review MSP base information to monitor
                                   carrier performance.

                                   Finally, the manager, Chicago District, should require
                                   supervisors and managers to consistently document
                                   unauthorized overtime on required forms and take
                                   appropriate corrective action.

    Summary of                     Management agreed with our findings and
    Management’s                   recommendations, but disagreed with the OIG’s
    Comments                       computation of the unrecoverable costs. Management
                                   detailed the actions already taken such as implementing the
                                   Pacific Area Overtime Management Guide to correct both
                                   supervisor and carrier behavior. Also, management
                                   conducted additional training in MSP and unauthorized
                                   overtime procedures. Management’s comments, in their
                                   entirety, are included in Appendix E of this report.

    Overall Evaluation of          Management, in disagreeing with the $2,020,200 in
    Management’s                   unrecoverable costs, stated the OIG was errant in solely
    Comments                       claiming unjustified time based on the 6 delivery units
                                   visited and then multiplying by an additional 21 similar sized
                                   units to arrive at the total of 78,248 hours of unjustified time.
                                   Management stated that the primary reason for the

3
The Great Lakes Area MSP Standard Operating Procedure, Number 05-6, dated August 10, 2002, requires
management to retrieve the MSP Overview daily.




                                                     ii
City Letter Carrier Operations –                                                     DR-AR-05-019
 Chicago District


                                   unjustified overtime was because carriers failed to complete
                                   PS Form 3996 and that such a failure was not indicative of
                                   the workload that may have existed. We agree that
                                   completing the PS Form 3996 is not indicative of actual
                                   workload. We make two points related to this issue. First,
                                   our approach was in accordance with generally accepted
                                   government auditing standards allowing the use of statistical
                                   methods. We followed standard statistical procedures for a
                                   cluster sample. Our sample included 6 facilities with 265
                                   routes in total. We used this as an indicator of the
                                   magnitude of the PS Form 3996 issue, which is 78,248
                                   hours. Second, the actual cost impact was derived based
                                   on 50 percent of the variance of planned work hours and
                                   actual work hours (53,943 hours) from the Web Enabled
                                   Enterprise Information System. This approach was agreed
                                   to by Postal Service Headquarters management as a
                                   reasonable target to achieve.

                                   Management’s actions taken or planned are responsive to
                                   our findings and recommendations and should correct the
                                   issues identified in our report.




                                                   iii
City Letter Carrier Operations –                                                                  DR-AR-05-019
 Chicago District


                                                INTRODUCTION
    Background                     The Postal Service delivered over 200 billion pieces of mail
                                   to more than 143 million addresses in fiscal year (FY) 2004
                                   and expects to deliver to an additional 1.6 million addresses
                                   in FY 2005. The Delivery Operations Information System
                                   (DOIS), deployed in FY 2002, provides operational data to
                                   the delivery facility supervisors and managers to assist them
                                   in managing daily carrier operations and reducing costs.
                                   This data includes mail volume, mail arrival and dispatch
                                   times, and projected office and street hours for routes.

                                   As shown in Figure 1, delivery operations constitute
                                   45 percent of the workhours in the FY 2005 field operating
                                   budget, which is mainly attributable to office and street
                                   workhours. Salary and benefits for rural and city carriers
                                   totaled approximately $21 billion. Also, in the FY 2005 field
                                   budget, the Postal Service established a goal to reduce
                                   delivery workhours by 6.2 million. City delivery hours are
                                   budgeted as 73 percent of total delivery workhours.4

                                    Figure 1. FY 2005 Field Budget Workhours


                                                                      45%




                                                                                            8%




                                                          23%                         16%

                                                                       3% 5%

                                              Support, Controller, Disability and Consolidated Function
                                              Mail Processing
                                              Delivery
                                              Vehicle Service and Plant Maintenance
                                              Customer Service
                                              Field Administration

                                                 Source – Postal Service FY 2005 Field Budget

4
 Management budgeted total delivery workhours for FY 2005 at 631,731,535. Of the total delivery workhours, they charged
458,064,595 (or 73 percent) to the city delivery function code (2B).



                                                             1
City Letter Carrier Operations –                                                                          DR-AR-05-019
 Chicago District



                                    The Great Lakes Area consists of 839 DOIS delivery
                                    facilities5 in 9 districts. The Great Lakes Area’s FY 2005
                                    budget performance goal is to reduce city delivery
                                    workhours by 614,617, representing a cost savings of
                                    $21,636,868.6 The Chicago District ranks ninth in the Great
                                    Lakes Area with 49 DOIS delivery facilities and fourth in the
                                    area with 2,483 DOIS city delivery routes.

                                    Each delivery facility’s mail volume, mail arrival and
                                    dispatch times, and office and street hours vary and are
                                    managed by the delivery facility supervisor or manager. In
                                    addition, routes in a city delivery facility have an established
                                    office and street time (usually eight hours) based on the last
                                    route inspection. One aspect of daily delivery facility
                                    operations is preparation and submission of Postal Service
                                    (PS) Form 3996, Carrier – Auxiliary Control, by city letter
                                    carriers requesting overtime or assistance on their routes.
                                    The supervisor reviews each request and either approves
                                    the additional time, decreases the time, assigns assistance,
                                    curtails mail, or denies the carrier’s request. The supervisor
                                    bases this decision on the daily workload or mail volume
                                    received in the delivery facility.

                                    Unauthorized time is time worked that is not authorized by
                                    the supervisor/manager. For example, when a carrier
                                    requests 1 hour of additional time, but uses 1 hour and
                                    30 minutes, the extra 30 minutes is unauthorized time.
                                    Unjustified time occurs when the workload or volume does
                                    not support the hours used. Using the above example, if
                                    the carrier worked 1 hour and 30 minutes of extra time, but
                                    the workload only supported 30 minutes, the extra 1 hour
                                    would be classified as unjustified time. A carrier can have
                                    both unauthorized and unjustified time, simultaneously.

                                    To determine the amount of unauthorized and unjustified
                                    overtime on routes, a “3996 audit” of a delivery facility’s
                                    activities can be performed. Using the DOIS Workload




5
  A DOIS delivery facility is a building with one or more delivery units with the capability to access DOIS to manage daily delivery
operations. A delivery unit is a group of routes that usually belong to a ZIP Code. However, some ZIP Codes with a few routes
can be combined to form one delivery unit and a ZIP Code with a large number of routes may be split into more than
one delivery unit.
6
  Memorandum dated June 30, 2004, FY 2005 Area Targets.



                                                                 2
City Letter Carrier Operations –                                                                          DR-AR-05-019
 Chicago District



                                     Status Report,7 PS Form 3996,8 and the Route/Carrier Daily
                                     Performance Report,9 several factors are reviewed:

                                              •    The amount of time the carrier requests for the
                                                   route.

                                              •    The amount of time the supervisor approves for
                                                   the route.

                                              •    The total time the carrier uses on the route.

                                              •    The justified and unjustified time.

                                     In addition to reviewing PS Forms 3996, an analysis of the
                                     completed PS Forms 1017-B, Unauthorized Overtime
                                     Record, can determine if supervisors are correcting carrier
                                     performance issues.

                                     Managed Service Points (MSP) is a computerized tool
                                     designed to monitor consistency of delivery time and
                                     enhance street management. Letter carriers use mobile
                                     data collection devices (DCD) to scan barcodes placed at
                                     service points reflecting key elements of the employee
                                     workday. Seven basic scan points are required:

                                              1.   Hot Case10
                                              2.   Depart to Route
                                              3.   First Delivery
                                              4.   Last Delivery Before Lunch
                                              5.   First Delivery After Lunch
                                              6.   Last Delivery
                                              7.   Return to Office

                                     At the conclusion of each workday, the carrier downloads
                                     the MSP data from the DCD into DOIS. Management
                                     compares this data to the route MSP base information

7
  Workload Status Reports provide management with data such as volume, parcel, and delivery point sequenced mail to make
effective decisions in matching workhours to workload.
8
  Carriers complete PS Forms 3996 to request overtime or auxiliary assistance on their routes for days when they estimate the
route will exceed eight hours because of workload and volume.
9
  The Route/Carrier Daily Performance Report assists supervisors in evaluating the performances of all routes within a delivery
unit for a single day.
10
   A hot case is a location within the delivery facility where employees resort mail missent from the processing plant and give it to
the assigned carrier.




                                                                  3
City Letter Carrier Operations –                                                       DR-AR-05-019
 Chicago District



                                   employees store in DOIS to generate reports supervisors
                                   use to evaluate the carrier’s performance.

 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS Reports in a
                                   timely manner to manage operations, and effectively used
                                   MSP base information to monitor carrier performance.

                                   Additionally, we assessed whether delivery facility
                                   supervisors/managers properly tracked unauthorized time
                                   by documenting letter carriers’ unauthorized time and taking
                                   corrective action. Our audit scope included reviewing city
                                   letter carrier operations for the 5-month period September 1,
                                   2004, through January 31, 2005.

                                   To accomplish our objectives, we randomly selected
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx To
                                   determine whether delivery facility supervisors/managers
                                   adequately matched workhours with workload, we randomly
                                   selected 20 days for each delivery facility and conducted
                                   “3996 audits” for each day to quantify the amount of
                                   unjustified time. We also observed the delivery facility
                                   supervisors’ and station managers’ morning activities of
                                   measuring and recording mail volume, reviewing Workload
                                   Status Reports, and approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers effectively used DOIS Reports in a timely
                                   manner, we analyzed the time each day that supervisors
                                   first generated the Workload Status, Route/Carrier Daily
                                   Performance, and MSP Overview Reports. Additionally, we
                                   reviewed the base MSP information for all routes at the
                                   six delivery facilities and reviewed the use of the log for PS
                                   Forms 1017-B.

                                   This audit was conducted from March through
                                   September 2005, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We relied on data obtained from the Web



                                                        4
City Letter Carrier Operations –                                                       DR-AR-05-019
 Chicago District


                                   Enabled Enterprise Information System (WebEIS) and
                                   DOIS. We did not directly audit these systems, but
                                   performed a limited data integrity review to support our data
                                   reliance. We discussed our observations and conclusions
                                   with appropriate management officials and included their
                                   comments where appropriate.

 Prior Audit Coverage              The Office of Inspector General (OIG) has issued five audit
                                   reports related to our objectives.

                                   City Letter Carrier Operations - Santa Ana District (Report
                                   Number DR-AR-05-013, August 8, 2005). The report
                                   outlined opportunities to improve the management of city
                                   letter carrier operations in the Santa Ana District. Delivery
                                   facility supervisors and managers did not adequately match
                                   workhours with workload. We projected the 6 delivery
                                   facilities had 83,864 unjustified hours over the 5-month
                                   period May 1 through September 30, 2004, not supported
                                   by volume or workload. We agreed with headquarters and
                                   Pacific Area delivery management to unrecoverable costs of
                                   $2,127,852. We also noted that supervisors/managers did
                                   not effectively use DOIS to manage daily operations and
                                   delivery unit supervisors and managers did not consistently
                                   perform street management or effectively use MSP to
                                   monitor city letter carriers’ street time to correct negative
                                   trends.

                                   City Letter Carrier Operations – San Diego District (Report
                                   Number DR-AR-05-014, August 8, 2005). The report The
                                   report outlined opportunities to improve the management of
                                   city letter carrier operations in the San Diego District.
                                   Delivery facility supervisors and managers did not
                                   adequately match workhours with workload. We projected
                                   the 6 delivery facilities had 53,835 unjustified hours over the
                                   5-month period May 1 through September 30, 2004, not
                                   supported by volume or workload. We agreed with
                                   headquarters and Pacific Area delivery management to
                                   unrecoverable costs of $1,423,935. We also noted that
                                   supervisors/managers did not effectively use DOIS to
                                   manage daily operations and delivery unit supervisors and
                                   managers did not consistently perform street management
                                   or effectively use MSP to monitor city letter carriers’ street
                                   time to correct negative trends.




                                                         5
City Letter Carrier Operations –                                                        DR-AR-05-019
 Chicago District



                                   City Letter Carrier Operations – Rio Grande District (Report
                                   Number DR-AR-05-009, December 2, 2004). The report
                                   outlined opportunities to improve the management of city
                                   letter carrier operations in the Rio Grande District. Delivery
                                   facility supervisors and managers did not adequately match
                                   workhours with workload. We projected the 3 delivery
                                   facilities had 5,318 unjustified hours (at an estimated cost of
                                   $193,947) not supported by volume or workload over the
                                   5-month period October 1, 2003, through February 29,
                                   2004. We reported 2,543 of the unjustified hours–or
                                   $92,762–as unrecoverable costs. We also noted that
                                   supervisors/managers did not effectively use DOIS to
                                   manage daily operations and delivery unit supervisors and
                                   managers did not consistently perform street management
                                   or effectively use MSP to monitor city letter carriers’ street
                                   time to correct negative trends.

                                   City Letter Carrier Office Preparation in the Dallas District
                                   (Report Number DR-AR-04-005, July 26, 2004). The report
                                   stated that opportunities exist to improve Dallas District’s
                                   city letter carrier office preparation operations. Specifically,
                                   impediments existed that adversely impacted delivery
                                   supervisors’/managers’ ability to adequately match
                                   workhours with workload. In addition, city letter carriers’
                                   work activities did not always ensure they departed the
                                   delivery facility as scheduled and supervisors/managers did
                                   not use the DOIS to assist in managing office activities.

                                   City Carrier Productivity – Letter Carrier Delays in the
                                   Baltimore District (Report Number TD-AR-03-011, July 28,
                                   2003). The report stated that early reporting wasted
                                   carriers’ morning time and exposed the Baltimore District to
                                   potential unnecessary evening overtime costs. It was noted
                                   supervisors/managers were not using DOIS to manage
                                   carrier schedules and, consequently, could not use the
                                   system to evaluate carrier scheduling or take corrective
                                   action.




                                                         6
City Letter Carrier Operations –                                                        DR-AR-05-019
 Chicago District


                                              AUDIT RESULTS
 City Letter Carrier               Opportunities exist to improve the management of city letter
 Operations                        carrier operations in the Chicago District. Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          effectively match workhours with workload. As a
                                          result, we projected the 6 delivery facilities had
                                          22,356 unjustified hours that were not supported
                                          by volume or workload from September 1, 2004,
                                          through January 31, 2005. We projected the sample
                                          results to all 21 similarly sized delivery facilities in
                                          the district for a total of 78,248 unjustified hours.
                                          Headquarters management and the OIG agreed to
                                          unrecoverable costs of 50 percent of the total
                                          variance in WebEIS, which amounts to $2,020,200.
                                          (See Appendix D.)

                                      •   Supervisors and managers did not always timely use
                                          DOIS Reports such as Workload Status, Route/
                                          Carrier Daily Performance, and MSP Overview
                                          Reports to manage daily operations effectively.

                                      •   Supervisors and managers did not consistently use
                                          the MSP base information to effectively monitor
                                          carrier performance.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take appropriate corrective action.

 Workhours Not                     Delivery facility supervisors and managers did not
 Adequately Matched                adequately match workhours with workload. We projected
 to Workload                       the sample results in the 21 similarly sized delivery facilities
                                   in the district for a total of 78,248 unjustified hours with
                                   unrecoverable costs of $2,020,200 over the 5-month period
                                   September 1, 2004, through January 31, 2005. The
                                   unjustified hours occurred primarily because carriers did not
                                   always submit a PS Form 3996 to document their requests
                                   for additional time. In addition, carriers did not properly
                                   complete PS Forms 3996, and supervisors authorized time
                                   carriers did not request and/or did not take action on PS
                                   Forms 3996.




                                                         7
City Letter Carrier Operations –                                                                         DR-AR-05-019
 Chicago District



                                    Postal Service Handbook M-41, City Delivery Carrier Duties
                                    and Responsibilities, Section 131.41 (updated with Postal
                                    Bulletin revisions through April 2001), states that it is the
                                    carrier’s responsibility to complete items on PS Form 3996 if
                                    overtime or auxiliary assistance is authorized for the office or
                                    the street.

                                    Management Instruction PO-610-2000-1, Piece Count
                                    Recording System, dated December 2000, states that
                                    effective day-to-day management of a delivery facility
                                    requires evaluation of the facility’s daily mail volume. The
                                    Postal Service uses volume data daily to assess the
                                    workhours needed for any given day.

 Unjustified Time                   We analyzed delivery facility information11 and conducted
                                    “3996 audits” for 12012 days at 6 randomly sampled delivery
                                    facilities from September 1, 2004, through January 31, 2005.
                                    The “3996 audits” identified 3,606 unjustified hours (or
                                    99 percent) of the total 3,648 hours that were expended on
                                    routes with time used over 8 hours. We projected the
                                    sample results to all 21 similarly sized delivery facilities in
                                    the district for a total of 78,248.03 unjustified hours at a
                                    projected cost of over $2.9 million.13

                                    The “3996 audit” process assesses individual route time
                                    used over 8 hours. The audit process cannot differentiate
                                    between time that is truly unjustified and time that is simply
                                    not supported by documentation. The Total Variance Factor
                                    in the Postal Service’s WebEIS shows the difference
                                    between projected workhours for the workload identified in
                                    DOIS and the actual workhours carriers used. Headquarters
                                    management and the OIG agreed to 50 percent of the total
                                    WebEIS variance from September 1, 2004, to January 31,
                                    2005 as unrecoverable costs, which amounts to
                                    $2,020,200.14




11
   DOIS Workload Status Reports, PS Forms 3996, and Route/Carrier Daily Performance Reports.
12
   We randomly selected 20 days at each of the 6 facilities to conduct “3996 audits,” so we completed 120 “3996 audits.”
13
   Postal Service Finance memorandum dated March 7, 2005, shows the national average labor rate for city letter carriers in
FY 2004 was $37.45. The 78,248.03 hours multiplied by $37.45 equals $2,930,387.
14
   The WebEIS shows the total variance between projected workhours for the workload identified in DOIS and the actual
workhours carriers used. The total variance for the 21 similarly sized delivery facilities is $4,040,400 for September 1, 2004,
through January 31, 2005.



                                                                 8
City Letter Carrier Operations –                                                       DR-AR-05-019
 Chicago District



 PS Form 3996,                     Carriers did not always submit PS Forms 3996 to request
 Carrier – Auxiliary               additional time on routes. Of the days we reviewed, 3,227 of
 Control                           the 3,605 total unjustified hours (or 90 percent) were the
                                   result of carriers not submitting the form. This occurred
                                   because delivery facility management did not emphasize to
                                   carriers the importance of using the form. Further,
                                   supervisors often verbally approved overtime with carriers.

                                   When carriers submitted PS Forms 3996, they did not
                                   always properly document their request for additional time.
                                   For example, carriers requested time with no reasons listed
                                   or gave reasons with no corresponding amount of time. This
                                   occurred because the supervisors accepted PS Forms 3996
                                   carriers did not properly document to justify the additional
                                   time.

                                   Postal Service Handbook M-41, City Delivery Carrier Duties
                                   and Responsibilities, Chapter 2, Section 28 (updated with
                                   Postal Bulletin revisions through April 2001), states that the
                                   carrier must show the reason for requesting assistance on
                                   his/her route in detail on PS Form 3996.

                                   The delivery facilities incurred unjustified workhours as a
                                   result of carriers not submitting PS Forms 3996 or
                                   submitting incomplete documentation.

 Recommendations                   We recommend the manager, Chicago District:

                                      1.   Direct station managers and supervisors to enforce
                                           the policy for carriers to complete a Postal Service
                                           Form 3996, Carrier – Auxiliary Control, when
                                           workload or volume indicates the carrier will need
                                           additional time for the route and require carriers to
                                           properly document reasons for their request of
                                           additional time.

                                      2.   Instruct station managers and delivery facility
                                           supervisors to only authorize time carriers request if
                                           it is justified by the workload.

 Management’s                         Management agreed with our findings, and
 Comments                             recommendations, but disagreed with the unrecoverable
                                      costs. Management has taken actions to ensure
                                      compliance. Management conducted management



                                                         9
City Letter Carrier Operations –                                                    DR-AR-05-019
 Chicago District


                                   training for all 48 station managers and Customer
                                   Service operation managers on August 18, 2005. This
                                   training included proper completion and authorization of
                                   PS Forms 3996. In addition, management was tasked to
                                   train all carriers in the proper use and completion of the
                                   PS Forms 3996 no later than August 31, 2005.

 Evaluation of                     Management’s comments are responsive to our findings
 Management’s                      and recommendations 1 and 2. The OIG calculated the
 Comments                          unjustified costs through a random sample analysis of
                                   PS Form 3996. The “3996 audit” process is an
                                   assessment of individual route time greater than 8 hours.
                                   The audit process cannot differentiate between time that
                                   is truly unjustified and time that is simply not supported
                                   by documentation. The Total Variance Factor in the
                                   Postal Service’s WebEIS data system shows the
                                   difference between projected workhours for the workload
                                   identified in DOIS and the actual workhours used by the
                                   carriers. The total variance factor indicates these delivery
                                   units were using more workhours than the workload or
                                   volume supported. Management’s actions taken should
                                   correct the issues identified in the finding.




                                                     10
City Letter Carrier Operations –                                                                       DR-AR-05-019
 Chicago District




 Supervisors Did Not                   Supervisors and managers did not timely view DOIS
 Always Timely View                    operational reports to assist in managing delivery
 DOIS Reports                          operations. This occurred because they felt uncomfortable
                                       with the reports and felt they were a low priority. According
                                       to the Delivery Operations Information System Quality
                                       Assessment, September 9, 2002, it is critical that
                                       supervisors use DOIS to manage daily facility operations.

                                       Supervisors and managers did not always review the
                                       Workload Status, Route/Carrier Daily Performance, and
                                       MSP Overview Reports at the appropriate time. As
                                       illustrated in Table 1, supervisors were not using the
                                       operational delivery data available to manage their delivery
                                       facilities.
                                                      Table 1. Supervisors’ DOIS Activity
                                                September 1, 2004, Through January 31, 2005
                                                                (124 workdays)
                                                               Days           Days
                                                            Workload      Route/Carrier     Days
                                                              Status          Daily         MSP
                                          Six Randomly Report NOT         Performance     Overview
                                            Sampled           Viewed       Report NOT      Report
                                             Delivery         Before     Viewed Before      NOT
                                            Facilities       8:00 a.m.      8:00 a.m.      Viewed
                                         xxxxx                           46                       65         82
                                         xxxxxx                          39                        5          5
                                         xxxxxxxxxxxx                     9                       10          7
                                         xxxxxxxxxxxxx                    4                        8          2
                                         xxxxxxx
                                         xxxxxxxxx                       48                       5           6
                                         xxxxxxxxxxx                     23                       5          14

                                                    TOTAL               169                       98        116
                                                            Source: Postal Service DOIS Reports


                                       The Workload Status Report was not viewed before
                                       8:00 a.m. in 169 of 74415 instances (23 percent). The
                                       Route/Carrier Daily Performance Report was not viewed
                                       before 8:00 a.m. in 98 of 744 instances (13 percent). The
                                       MSP Overview Report was not viewed daily in 116 of
                                       744 instances (16 percent).


15
     124 days x 6 DOIS delivery facilities = 744.



                                                                 11
City Letter Carrier Operations –                                                     DR-AR-05-019
 Chicago District



                                   Delivery Operations Information System Quality
                                   Assessment, September 2002, states it is critical that
                                   supervisors use DOIS to manage daily facility operations
                                   and review reports timely. The Great Lakes Area MSP
                                   Standard Operating Procedure requires supervisors to pull
                                   the MSP Overview Report daily and to review, annotate,
                                   and document any noncompliance indicators.

                                   Supervisors stated that they had received DOIS training, but
                                   felt they need additional training to fully understand the
                                   DOIS Reports. Chicago District management stated that
                                   the AM SOP certification process, which includes a
                                   reemphasis on the use of DOIS Reports, should help
                                   supervisors improve their working knowledge of the DOIS
                                   Reports.

                                   Supervisors impact their ability to make effective decisions
                                   in matching workhours to workload by not reviewing
                                   operational and critical data such as mail volume, carrier
                                   performance, and street delivery activities in DOIS. In
                                   addition, by not reviewing the data, supervisors may not
                                   take timely corrective action to address carrier performance
                                   issues.

 Recommendations                   We recommend the manager, Chicago District:

                                      3.   Direct station managers and supervisors to
                                           review Workload Status and Route/Carrier Daily
                                           Performance Reports by 8:00 a.m. so they can
                                           accurately match workload to workhours.

                                      4.   Direct station managers and supervisors to review
                                           the Managed Service Points Overview Report daily.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          and has taken actions to ensure compliance. Management
                                   conducted training on September 15, 2005, for all Station
                                   managers on pulling, reviewing, and analyzing DOIS
                                   reports.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 3 and 4. Management’s actions taken
 Comments                          should correct the issues identified in the finding.




                                                       12
City Letter Carrier Operations –                                                                        DR-AR-05-019
 Chicago District




 Managed Service                    Delivery facility managers did not consistently use MSP
 Points Base                        base information to effectively monitor carrier street
 Information                        performance. We reviewed the base MSP information for
                                    all routes at the 6 randomly sampled delivery facilities and
                                    identified 157 of 272 routes that had issues where office or
                                    street times had excessive interval times or were out-of-
                                    sequence.16

                                    Examples of out-of-sequence conditions included:

                                        •    Return to office time before the last delivery.

                                        •    Excessive return to office time.

                                        •    Excessive positive or negative interval time between
                                             MSP scan points.

                                    The out-of-sequence times were the result of supervisors
                                    not having a current PS Form 3999, Inspection of Letter
                                    Carrier Route,17 or not using a current form to update the
                                    route pivot plan. The route pivot plan is a detailed
                                    description of the route that the city delivery carrier should
                                    follow while delivering mail on the street. However, even
                                    with a current PS Form 3999, the manager or supervisor
                                    must update the form and the pivot plan to reflect any
                                    changes to the route to ensure the correct placement of
                                    MSP scan points.

                                    Also, the delivery supervisors we spoke with said they had
                                    received minimum MSP training, but needed additional
                                    training to interpret the MSP reports. District officials said
                                    they had conducted MSP training for most staff since they
                                    implemented DOIS. In addition, as part of the new AM SOP
                                    procedures, delivery facility management stated they were
                                    beginning to train supervisors on how to update PS
                                    Forms 3999.

                                    The Great Lakes Area MSP Standard Operating Procedure
                                    dated August 2002, requires supervisors to retrieve the
                                    MSP Overview Report daily and to review, annotate, and
                                    document any non-compliance indicators. Supervisors and
16
 Out-of-sequence occurs when the scheduled times for the route do not occur in chronological order.
17
 PS Form 3999 records all pertinent information concerning a carrier’s office and street performance, including line of travel
details, listing office leave time, first delivery time, lunch time, and last delivery time.



                                                                13
City Letter Carrier Operations –                                                      DR-AR-05-019
 Chicago District


                                   managers who did not review this report daily (as illustrated
                                   in Table 1) were unable to determine variances between the
                                   actual and scheduled times of MSP scan points that would
                                   have identified carrier performance issues or identified
                                   inaccurate MSP base information.

 Recommendations                   We recommend the manager, Chicago District:

                                      5.   Require employees to update base information
                                           when any changes are made to a route.

                                      6.   Provide additional training to station supervisors
                                           and managers in using Managed Service Points
                                           more effectively.

 Management’s                         Management agreed with the finding and
 Comments                             recommendations and has implemented or will be
                                      implementing actions to ensure compliance with MSP.
                                      Management conducted additional MSP training for the
                                      six stations on September 15, 2005, and scheduled the
                                      remaining stations by the end of the fiscal year.

 Evaluation of                        Management’s comments are responsive to our finding
 Management’s                         and recommendations 5 and 6. Management’s action
 Comments                             taken or planned should correct the issues identified in
                                      the finding.




                                                       14
City Letter Carrier Operations –                                                                             DR-AR-05-019
 Chicago District




 Unauthorized Time                      Supervisors/managers at the six delivery facilities sampled
                                        did not always properly document letter carriers’
                                        unauthorized overtime occurrences. For example,
                                        one delivery facility had no PS Form 1017-B log entries and
                                        another delivery facility only had five entries. Supervisors
                                        said completing PS Forms 1017-B was a low priority and
                                        believed it would have minimum impact on correcting carrier
                                        performance.

                                        As shown in Table 2, there were 228 PS Form 1017-B
                                        entries recorded for all 120 sampled days for the 5-month
                                        period September 1, 2004, through January 31, 2005.
                                        However, 2 of the 6 delivery facilities accounted for 186 of
                                        the total PS Form 1017-B log entries.

                                        Table 2. Summary of the PS Form 1017-B Log Entries for the
                                               Six Delivery Facilities from September 1, 2004,
                                                         Through January 31, 200518

                                                             Six
                                                         Randomly             Total           Number
                                                          Sampled            Number           of Days
                                                          Delivery          of 1017-B           with
                                                          Facilities         entries          Entries
                                                        xxxxxxxx
                                                                                118           11 of 20
                                                        xxxx
                                                        xxxxxxxx                 68            7 of 20
                                                        Xxxxxxx
                                                                                 20            2 of 20
                                                        xxxx
                                                        Xxxxxxx
                                                                                 17            5 of 20
                                                        xxxxx
                                                        xxxxx                    5             3 of 20
                                                        xxxxxxxxxx               0             0 of 20
                                                         OVERALL                228           28 of 120
                                                        Source: Postal Service Delivery Facility Records


                                        Supervisors said they informally discussed unauthorized
                                        overtime with carriers. However, supervisors should have
                                        documented discussions regarding the reasons for
                                        unauthorized overtime after returning from the route in the
                                        remarks section of PS Form 1017-B.



18
     Twenty randomly selected days for each delivery facility, times six delivery facilities, equals 120 possible days.




                                                                    15
City Letter Carrier Operations –                                                        DR-AR-05-019
 Chicago District


                                   Handbook F-401, Supervisor’s Guide to Scheduling and
                                   Premium Pay, Chapter, 5, Section F, August 2000, states:

                                           . . . employees are responsible for adhering to
                                           their assigned work schedules. A variance
                                           from the assigned work schedule will result in
                                           unauthorized overtime. Supervisors must
                                           document these occurrences on PS
                                           Form 1017-B and take corrective action.

                                   As a result of not documenting unauthorized overtime,
                                   supervisors were not able to effectively consult and correct
                                   carrier performance issues to assist in managing overtime
                                   hours.

 Recommendation                    We recommend the manager, Chicago District:

                                      7.     Reinforce the policy in Handbook F-401,
                                             Supervisor’s Guide to Scheduling and Premium
                                             Pay, to properly complete PS Form 1017-B,
                                             Unauthorized Overtime Record, to document
                                             unauthorized overtime, and take appropriate
                                             corrective action.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Management provided training on unauthorized overtime to
                                   all station managers on August 18, 2005. Management will
                                   perform random station audits to reduce the amount of
                                   unauthorized overtime and to ensure corrective action is
                                   being taken.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation. Management’s actions taken should
 Comments                          correct the issue identified in the finding.




                                                          16
City Letter Carrier Operations –                                                                                                                                                                  DR-AR-05-019
 Chicago District


                                    APPENDIX A. SUMMARY OF 120 “3996 AUDITS”




                                                                                                       Total Unjustified Time in Minutes
                                                                   Total Time Used Greater Than




                                                                                                                                                                                                             No PS Form 3996 but Route
                                                                                                                                                                             Total Routes Greater Than




                                                                                                                                                                                                             Greater Than Eight Hours
                                                                                                                                                 Total Unjustified Percent
                                                                   Eight Hours in Minutes
                      Delivery Facility




                                                     Day of Week




                                                                                                                                                                             Eight Hours
    Number




                                             Date


        1    xxxxxx                       09/02/04   Th                                  738                                618                 84%                                                      8                               7
        2    xxxxxx                       09/07/04   T                            2021                  2021                                    100%                                             27                                      27
        3    xxxxxx                       09/10/04   F                                   341                                341                 100%                                                     6                               6
        4    xxxxxx                       09/13/04   M                                   823                                823                 100%                                             16                                      12
        5    xxxxxx                       09/16/04   Th                                  294                                294                 100%                                                     5                               2
        6    xxxxxx                       09/23/04   Th                                           68                                       68   100%                                                     3                               3
        7    xxxxxx                       10/12/04   T                            2526                  2526                                    100%                                             33                                      30
        8    xxxxxx                       10/13/04   W                                   410                                410                 100%                                             13                                      13
        9    xxxxxx                       10/14/04   Th                                           48                                       48   100%                                             10                                      10
    10       xxxxxx                       10/16/04   S                                   342                                342                 100%                                             10                                      10
    11       xxxxxx                       10/19/04   T                                   565                                565                 100%                                             19                                      17
    12       xxxxxx                       11/17/04   W                                   375                                375                 100%                                             10                                      10
    13       xxxxxx                       11/18/04   Th                                  170                                170                 100%                                                     6                               6
    14       xxxxxx                       12/10/04   F                                   102                                102                 100%                                                     7                               7
    15       xxxxxx                       12/20/04   M                                   978                                978                 100%                                             13                                      13
    16       xxxxxx                       12/30/04   Th                                  138                                138                 100%                                                     5                               5
    17       xxxxxx                       01/10/05   M                                   881                                881                 100%                                             19                                      19
    18       xxxxxx                       01/20/05   Th                           1108                  1108                                    100%                                             19                                      19
    19       xxxxxx                       01/26/05   W                                   515                                515                 100%                                             22                                      22
    20       xxxxxx                       01/27/05   Th                                  151                                151                 100%                                             10                                      9
    21       xxxxx                        09/15/04   W                            1001                                      818                 82%                                              20                                      13
    22       xxxxx                        09/22/04   W                                   675                                571                 85%                                              12                                      8
    23       xxxxx                        09/23/04   Th                                  588                                588                 100%                                             14                                      13
    24       xxxxx                        09/25/04   S                        1,031                                         949                 92%                                              20                                      16
    25       xxxxx                        09/28/04   T                                   995                                873                 88%                                              19                                      15
    26       xxxxx                        10/18/04   M                        1,598                    1,418                                    89%                                              25                                      18
    27       xxxxx                        11/19/04   F                                   239                                239                 100%                                                     8                               7
    28       xxxxx                        11/23/04   T                        1,158                    1,143                                    99%                                              20                                      16
    29       xxxxx                        11/26/04   F                        2,114                    2,056                                    97%                                              29                                      27




                                                                   17
City Letter Carrier Operations –                                                                                                                                                         DR-AR-05-019
 Chicago District




                                                                                                   Total Unjustified Time in Minutes
                                                                    Total Time Used Greater Than




                                                                                                                                                                                                    No PS Form 3996 but Route
                                                                                                                                                                    Total Routes Greater Than




                                                                                                                                                                                                    Greater Than Eight Hours
                                                                                                                                        Total Unjustified Percent
                                                                    Eight Hours in Minutes
                       Delivery Facility




                                                      Day of Week




                                                                                                                                                                    Eight Hours
    Number




                                              Date
    30       xxxxx                         12/06/04   M                                   638                           550            86%                                              10                                      8
    31       xxxxx                         12/07/04   Th                                  626                           572            91%                                              11                                      6
    32       xxxxx                         12/09/04   T                                   321                           281            88%                                              12                                      9
    33       xxxxx                         12/18/04   S                                   551                           535            97%                                              13                                      11
    34       xxxxx                         12/21/04   T                        1,376               1,337                               97%                                              28                                      26
    35       xxxxx                         12/28/04   T                        1,610               1,554                               97%                                              33                                      28
    36       xxxxx                         12/31/04   F                                   379                           322            85%                                              10                                      6
    37       xxxxx                         01/06/05   Th                       1,177               1,147                               97%                                              24                                      20
    38       xxxxx                         01/07/05   F                                   681                           681            100%                                             16                                      16
    39       xxxxx                         01/25/05   T                        1,323               1,323                               100%                                             15                                      15
    40       xxxxx                         01/26/05   W                        1,171               1,171                               100%                                             26                                      26
    41       xxxxxxxxxxxx                  09/09/04   Th                       2,801               2,801                               100%                                             30                                      30
    42       xxxxxxxxxxxx                  09/16/04   Th                       1,433               1,433                               100%                                             14                                      14
    43       xxxxxxxxxxxx                  10/04/04   M                        2,861               2,803                               98%                                              25                                      22
    44       xxxxxxxxxxxx                  10/20/04   W                                   910                           910            100%                                             14                                      13
    45       xxxxxxxxxxxx                  10/28/04   Th                       1,711               1,692                               99%                                              14                                      12
    46       xxxxxxxxxxxx                  10/30/04   S                        1,168               1,109                               95%                                              16                                      15
    47       xxxxxxxxxxxx                  11/09/04   T                        2,495               2,478                               99%                                              28                                      26
    48       xxxxxxxxxxxx                  11/13/04   S                        2,553               2,553                               100%                                             26                                      26
    49       xxxxxxxxxxxx                  12/02/04   Th                       1,714               1,714                               100%                                             22                                      22
    50       xxxxxxxxxxxx                  12/07/04   T                                   807                           807            100%                                             17                                      17
    51       xxxxxxxxxxxx                  12/09/04   Th                                  767                           767            100%                                                     7                               7
    52       xxxxxxxxxxxx                  12/14/04   T                        1,179               1,179                               100%                                             23                                      23
    53       xxxxxxxxxxxx                  12/24/04   F                                   747                           747            100%                                             15                                      15
    54       xxxxxxxxxxxx                  12/28/04   T                        3,306               3,306                               100%                                             27                                      27
    55       xxxxxxxxxxxx                  01/04/05   T                        1,420               1,420                               100%                                             22                                      22
    56       xxxxxxxxxxxx                  01/06/05   Th                       1,875               1,875                               100%                                             23                                      22
    57       xxxxxxxxxxxx                  01/07/05   F                                   846                           846            100%                                             18                                      18
    58       xxxxxxxxxxxx                  01/26/05   W                        2,628               2,628                               100%                                             29                                      29
    59       xxxxxxxxxxxx                  01/27/05   Th                       2,029               2,029                               100%                                             27                                      27
    60       xxxxxxxxxxxx                  01/28/05   F                        1,217               1,217                               100%                                             16                                      16




                                                                    18
City Letter Carrier Operations –                                                                                                                                                          DR-AR-05-019
 Chicago District




                                                                                                    Total Unjustified Time in Minutes
                                                                     Total Time Used Greater Than




                                                                                                                                                                                                 No PS Form 3996 but Route
                                                                                                                                                                     Total Routes Greater Than




                                                                                                                                                                                                 Greater Than Eight Hours
                                                                                                                                         Total Unjustified Percent
                                                                     Eight Hours in Minutes
                        Delivery Facility




                                                       Day of Week




                                                                                                                                                                     Eight Hours
    Number




                                               Date
    61       xxxxxxxxxxxxxxxxxxx            09/13/04   M                        3,198               3,198                               100%                                             33                                  33
    62       xxxxxxxxxxxxxxxxxxx            09/16/04   Th                       2,452               2,452                               100%                                             25                                  25
    63       xxxxxxxxxxxxxxxxxxx            09/21/04   T                        2,058               2,058                               100%                                             27                                  23
    64       xxxxxxxxxxxxxxxxxxx            09/22/04   W                        1,533               1,533                               100%                                             19                                  17
    65       xxxxxxxxxxxxxxxxxxx            10/02/04   S                        2,880               2,880                               100%                                             30                                  30
    66       xxxxxxxxxxxxxxxxxxx            10/15/04   F                        2,891               2,891                               100%                                             29                                  28
    67       xxxxxxxxxxxxxxxxxxx            10/26/04   T                        3,934               3,934                               100%                                             38                                  36
    68       xxxxxxxxxxxxxxxxxxx            11/04/04   Th                       5,445               5,445                               100%                                             34                                  34
    69       xxxxxxxxxxxxxxxxxxx            11/23/04   T                        2,634               2,634                               100%                                             27                                  27
    70       xxxxxxxxxxxxxxxxxxx            12/01/04   W                        4,599               4,542                               99%                                              38                                  36
    71       xxxxxxxxxxxxxxxxxxx            12/04/04   S                        2,198               2,165                               98%                                              27                                  24
    72       xxxxxxxxxxxxxxxxxxx            12/11/04   S                        3,035               2,982                               98%                                              22                                  19
    73       xxxxxxxxxxxxxxxxxxx            12/22/04   W                        2,245               2,112                               94%                                              21                                  16
    74       xxxxxxxxxxxxxxxxxxx            12/27/04   M                        3,797               3,737                               99%                                              25                                  23
    75       xxxxxxxxxxxxxxxxxxx            12/31/04   F                                   707                           688            97%                                              12                                  11
    76       xxxxxxxxxxxxxxxxxxx            01/07/05   F                        2,694               2,681                               100%                                             28                                  27
    77       xxxxxxxxxxxxxxxxxxx            01/12/05   W                        4,517               4,286                               95%                                              34                                  26
    78       xxxxxxxxxxxxxxxxxxx            01/19/05   W                        1,924               1,894                               98%                                              25                                  23
    79       xxxxxxxxxxxxxxxxxxx            01/21/05   F                        1,201               1,180                               98%                                              17                                  15
    80       xxxxxxxxxxxxxxxxxxx            01/31/05   M                        1,957               1,941                               99%                                              30                                  29
    81       xxxxxxxx                       09/08/04   W                        5,153               5,153                               100%                                             35                                  35
    82       xxxxxxxx                       09/10/04   F                        3,710               3,710                               100%                                             25                                  25
    83       xxxxxxxx                       09/27/04   M                        3,114               3,114                               100%                                             26                                  20
    84       xxxxxxxx                       10/01/04   F                                   803                           803            100%                                             15                                  15
    85       xxxxxxxx                       10/02/04   S                        1,749               1,749                               100%                                             17                                  17
    86       xxxxxxxx                       10/05/04   T                        5,062               5,062                               100%                                             26                                  26
    87       xxxxxxxx                       10/14/04   Th                       3,092               3,092                               100%                                             27                                  27
    88       xxxxxxxx                       11/06/04   S                        3,357               3,357                               100%                                             26                                  26
    89       xxxxxxxx                       11/10/04   W                        2,435               2,435                               100%                                             29                                  28
    90       xxxxxxxx                       11/18/04   Th                       2,936               2,480                               84%                                              22                                  16
    91       xxxxxxxx                       11/26/04   F                        3,177               3,177                               100%                                             32                                  32




                                                                     19
City Letter Carrier Operations –                                                                                                                                                                        DR-AR-05-019
 Chicago District




                                                                                                                  Total Unjustified Time in Minutes
                                                                                 Total Time Used Greater Than




                                                                                                                                                                                                                   No PS Form 3996 but Route
                                                                                                                                                                                   Total Routes Greater Than




                                                                                                                                                                                                                   Greater Than Eight Hours
                                                                                                                                                       Total Unjustified Percent
                                                                                 Eight Hours in Minutes
                          Delivery Facility




                                                                  Day of Week




                                                                                                                                                                                   Eight Hours
    Number




                                                          Date
    92       xxxxxxxx                                  11/30/04   T                         4,251                 4,163                               98%                                              29                                      28
    93       xxxxxxxx                                  12/17/04   F                         1,283                 1,283                               100%                                             11                                      11
    94       xxxxxxxx                                  12/18/04   S                         1,685                 1,685                               100%                                             15                                      15
    95       xxxxxxxx                                  12/23/04   Th                        1,451                 1,451                               100%                                             13                                      12
    96       xxxxxxxx                                  01/05/05   W                         3,218                 3,137                               97%                                              30                                      30
    97       xxxxxxxx                                  01/15/05   S                         2,537                 2,537                               100%                                             23                                      23
    98       xxxxxxxx                                  01/18/05   T                 12,695                       12,408                               98%                                              42                                      34
    99       xxxxxxxx                                  01/25/05   T                         3,493                 3,493                               100%                                             28                                      28
   100       xxxxxxxx                                  01/27/05   Th                        3,666                 3,652                               100%                                             31                                      30
   101       xxxxxxxxxx                                09/01/04   W                         1,155                 1,155                               100%                                             18                                      17
   102       xxxxxxxxxx                                09/02/04   Th                                   131                             131            100%                                                     6                                6
   103       xxxxxxxxxx                                09/07/04   T                         2,436                 2,436                               100%                                             26                                      25
   104       xxxxxxxxxx                                09/18/04   S                         1,489                 1,489                               100%                                             11                                      11
   105       xxxxxxxxxx                                09/21/04   T                             1821               1821                               100%                                             15                                      15
   106       xxxxxxxxxx                                10/01/04   F                         1,789                 1,789                               100%                                             16                                      16
   107       xxxxxxxxxx                                10/13/04   W                         1,536                 1,536                               100%                                             28                                      26
   108       xxxxxxxxxx                                10/15/04   F                                    383                             383            100%                                             14                                      13
   109       xxxxxxxxxx                                10/19/04   T                         1,901                 1,901                               100%                                             20                                      19
   110       xxxxxxxxxx                                10/20/04   W                         1,396                 1,396                               100%                                             16                                      16
   111       xxxxxxxxxx                                10/21/04   Th                                   590                             590            100%                                             10                                       8
   112       xxxxxxxxxx                                10/28/04   Th                                   685                             685            100%                                             11                                      11
   113       xxxxxxxxxx                                11/10/04   W                                    858                             858            100%                                             12                                      12
   114       xxxxxxxxxx                                12/03/04   F                                    274                             274            100%                                                     5                                5
   115       xxxxxxxxxx                                12/21/04   T                         3,098                 3,098                               100%                                             30                                      28
   116       xxxxxxxxxx                                12/28/04   T                         2,536                 2,536                               100%                                             24                                      24
   117       xxxxxxxxxx                                01/05/05   W                         1,155                 1,155                               100%                                             18                                      18
   118       xxxxxxxxxx                                01/15/05   S                         1,048                 1,048                               100%                                             15                                      15
   119       xxxxxxxxxx                                01/19/05   W                         1,987                 1,987                               100%                                             25                                      23
   120       xxxxxxxxxx                                01/28/05   F                         1,996                 1,996                               100%                                             25                                      24
                                              TOTALS                            218,872                         216,354                                                                   2427                                  2264




                                                                                 20
City Letter Carrier Operations –                                                             DR-AR-05-019
 Chicago District


                                                   APPENDIX B

    PROJECTION OF “3996 AUDIT” RESULTS OVER FIVE-MONTH PERIOD


                                                                                                Projected
                                                                                                Hours Not
                                                   95 Percent     95 Percent                   Justified by
                                   Projection of   Confidence     Confidence                   Workload in
                                    Unjustified      Interval       Interval                 5-Month Period
                                    Time (Point       Lower          Upper                    (Sept. 1, 2004,
                                     Estimate)      Bound in       Bound in       Relative       Through
         Delivery Facility          in Minutes      Minutes        Minutes       Precision      Jan. 2005)
      xxxxxx                              77,339        39,669        115,009        48.7%           1,288.98

      xxxxx                              112,394        84,543        140,244        24.8%           1,873.23


      xxxxxxxxxxxxx                      212,747       166,112        259,382        21.9%           3,545.78


      xxxxxxxxxxxxxxxxx                  342,445       274,014        410,876        20.0%           5,707.41

      xxxxxxxxxx                         421,234       280,813        561,655        33.3%           7,020.57


      xxxxxxxxxxxx                       175,237       128,797        221,676        26.5%           2,920.61


      Total of six Facilities                                                                       22,356.58

                                                        Overall
      Chicago :                        4,694,882      2,176,592      7,213,172                         78,248
      21 Facilities




                                                          21
City Letter Carrier Operations –                                                DR-AR-05-019
 Chicago District


                        APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in the Chicago District in
the Great Lakes Area. In support of this objective, the audit team employed a two-stage sample
of carrier time, selecting delivery units and delivery days randomly. The sample design allows
statistical projection of the minutes of unjustified time total, unjustified office time, unjustified
street time, and unexplained unjustified time.

Audit Universe

The team judgmentally selected the Chicago District, which had 21 delivery units with 30 to
55 carrier routes. The audit universe consisted of 124 working days from September 1, 2004,
through January 31, 2005.

Sample Design and Modifications

We chose a two-stage sample design, with simple random selection of delivery units at the
first stage and a simple random sample of delivery days at the second stage. We examined all
delivery routes on the days selected. We had no information regarding the variability we might
see between delivery units. To size the sample, we considered each delivery unit and delivery
day combination as a universe element (a total of 2,064 unit days). We selected a desired
confidence level of 95 percent and, for sample size calculation purposes, a desired relative
precision for a variable estimate of 20 percent. We considered coefficient of variation (CV)
values of 100 and 125 percent. With application of the finite population correction, these CVs
generated sample sizes of 95 to 145, respectively. We chose to use a total of 120 delivery unit
days, randomly selecting six delivery units at the first stage and then randomly selecting
20 delivery days at each of the units.

Results

The value assigned to each delivery unit day is the total number of unjustified minutes in a
particular category. Using the total time value as the variable, we applied the equations for the
projection of a variable in a two-stage sample using the equations from Chapter 9 of Scheaffer,
Mendenhall, and Ott, Elementary Survey Sampling, c. 1996. The results for total unjustified
time are summarized in Appendix B.




                                                 22
City Letter Carrier Operations –                                                                      DR-AR-05-019
 Chicago District



                                                     APPENDIX D

                     OIG CALCULATION OF UNRECOVERABLE COSTS


As shown in the table below, the OIG identified $2,930,38719 in unjustified (unrecoverable)
costs. The OIG calculated the unjustified costs through a random sample analysis of PS
Form 3996. The “3996 audit” process is an assessment of individual route time greater than
8 hours. The audit process cannot differentiate between time that is truly unjustified and time
that is simply not supported by documentation. The Total Variance Factor in the Postal
Service’s WebEIS data system shows the difference between projected workhours for the
workload identified in DOIS and the actual workhours used by the carriers. Postal Service
Headquarters management and the OIG agreed to 50 percent of the WebEIS variance from
September 1, 2004, through January 31, 2005, as the unrecoverable costs, which amounts to
$2,020,200.20



                                             Workhours              Labor Rate                     Cost
          Unjustified workhours                78,248.03                 $37.45                     $2,930,387
          projected by the OIG
          from “3996 audits”
          during September 1,
          2004, through
          January 31, 2005, for
          21 delivery facilities
          with 30 to 55 routes
          Workhours using Total                 107,887.87                  $37.45                    $4,040,400
          Variance Factor in
          WebEIS for
          September 1, 2004,
          through January 31,
          2005, for the
          21 delivery facilities
          with 30 to 55 routes
          Unrecoverable                          53,943.93                  $37.45                    $2,020,200
          workhours identified
          by using 50 percent of
          WebEIS variance
19
   Postal Service Finance memorandum dated March 7, 2005, shows the actual national average labor rate for city letter carriers
in FY 2004 was $37.45. The 78,248.03 hours multiplied by $37.45 equals $2,930,387.
20
   Postal Service Finance memorandum dated March 7, 2005, shows the actual national average labor rate for city letter carriers
in FY 2004 was $37.45. The 53,943.93 hours multiplied by $37.45 equals $2,020,200.




                                                              23
City Letter Carrier Operations –                             DR-AR-05-019
 Chicago District


                         APPENDIX E. MANAGEMENT’S COMMENTS




                                        24
City Letter Carrier Operations –        DR-AR-05-019
 Chicago District




                                   25
City Letter Carrier Operations –        DR-AR-05-019
 Chicago District




                                   26
City Letter Carrier Operations –        DR-AR-05-019
 Chicago District




                                   27
City Letter Carrier Operations –        DR-AR-05-019
 Chicago District




                                   28
